HHS/OIG-Audit--"Status Report - Office of Inspector General/Department of Justice Joint Project--Medicare Nonphysician Outpatient Bills Submitted by Hospitals, (A-03-94-00021)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Status Report - Office of Inspector General/Department of Justice Joint Project--Medicare Nonphysician Outpatient
Bills Submitted by Hospitals," (A-03-94-00021)
August 29, 1995
Complete
Text of Report is available in PDF format (773 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the status of an ongoing nationwide project being conducted jointly by the Office of Inspector General
and the Department of Justice. The primary objective of the project is to recover from hospitals improper amounts billed
for nonphysician outpatient services that were also included in inpatient payments made under Medicare's prospective payment
system (PPS). To date the project has identified 4,660 hospitals that submitted bills for outpatient services included
in inpatient payments made under the PPS. The Project Team estimates that the project will result in recoveries of about
$100 million from the hospitals, refunds to beneficiaries, and improved hospital controls.